Report No. DODIG-2012-062                  March 08, 2012





    Contractor-Invoiced Costs Were Accurate, but DoD 

            Did Not Adequately Track Funding

Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (571) 372-7469.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (571) 372-7469, or by mail:

                      OIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      4800 Mark Center Drive (Room 13F25-04)
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
COR                           Contracting Officer’s Representative
DCMA                          Defense Contract Management Agency
DFAS                          Defense Finance and Accounting Service
FAR                           Federal Acquisition Regulation
FMR                           Financial Management Regulation
MERHC                         Medicare-Eligible Retiree Health Care
O&M                           Operation and Maintenance
TMA                           TRICARE Management Activity
USAMRAA                       U.S. Army Medical Research Acquisition Activity
-   ---   ~~ - - - - - -   -- -   - .-   - - - - - -- - -- - - - - -- -




                                                    INSPECTOR GENERAL
                                                     DEPARTMENT OF DEFENSE 

                                                     4800 MARK CENTER DRIVE 

                                                  ALEXANDRIA. VIRGIN IA 22350~1500       





                                                                                                      March 08, 2012

     MEMORANDUM FOR DIRECTOR, DEFENSE FfNANCE AND ACCOUNTING SERVICE
                    DIRECTOR, TRICARE MANAGEMENT ACTIVITY PAYMENT
                      OFFICE
                   AUDITOR GENERAL, DEPARTMENT OF THE ARMY

     SUBJECT: Contractor-Invoiced Costs Were Accurate, but DoD Did Not Adequately Track
              Funding (Report No. DODlG-20I2-062)

     We are providing this report for your review and comment. The contractor invoiced costs that
     were generally accurate, allowable, and allocable. The TRICARE Management Activity and the
     U.S. Army Medical Research Acquisition Activity did not adequately track and deobligate
     funding on one task order resulting in $521,889 in funds unavailable for other purposes. We
     considered management comments on a draft of this report when preparing the final report.

     The Assistant Secretary of Defense (Health Affairs) and the United States Army Medical
     Command/Office of the Surgeon General comments conformed to the requirements of DoD
     Directive 7650.3 and left no unresolved issues. Therefore, we do not require additional
     comments.

     We appreciate the courtesies extended to the staff. Please direct questions to me at
     (703) 604-9077 (DSN 664-9077).




                                                                                   ' /.a1~
                                                              r.(VCJ..<l~1i~n"'e~L:'<."JW
                                                                                        ~ icecarver
Report No. DODIG-2012-062 (Project No. D2011-D000CF-0062.000)	                              March 08, 2012
	

               Results in Brief: Contractor-Invoiced Costs
               Were Accurate, but DoD Did Not Adequately
               Track Funding
What We Did                                                Office paid 244 invoices, totaling $32.6 million,
                                                           in accordance with the Prompt Payment Act.
We determined whether costs on contractor
invoices for services performed for DoD were               USAMRAA and TMA officials did not
accurate, allowable, and allocable. In addition,           adequately track and deobligate funding on one
we determined whether U.S. Army Medical                    task order because they were unaware of whose
Research Acquisition Activity (USAMRAA)                    responsibility it was to track funding. As a
officials and TRICARE Management Activity                  result, $521,889 in funds were unavailable for
(TMA) officials adequately tracked funding on              other purposes.
one task order. We reviewed 251 invoices,
totaling $32.9 million, on 3 task orders, valued
at $64 million.                                            What We Recommend
                                                           We recommend that the Director, TMA,
What We Found                                              coordinate with the Director, USAMRAA, to:
The contractor for the three task orders invoiced             •	 determine how much of the $196,543 in
                                                                  Operation and Maintenance funds should
costs that were generally accurate, allowable,
                                                                  remain on task order 6 for final indirect
and allocable. Specifically, the contractor:
                                                                  rate adjustments and deobligate the
    •	 appropriately invoiced $9.4 million on
                                                                  remaining funds;
        94 invoices reviewed;
                                                              •	 determine how much of the $325,346 in
    •	 generally complied with its time and
                                                                  DoD Medicare-Eligible Retiree Health
        attendance policy for 1,156 time sheets;
                                                                  Care Funds should remain on task
    •	 billed for labor categories and rates                      order 6 for final indirect rate adjustments
        established in the task order or base                     and deobligate the remaining funds; and
        contract for 111 labor invoices, totaling
                                                              •	 establish guidance that delineates the
        $19.5 million; and
                                                                  roles and responsibilities of the funds
    •	 hired employees that met the                               holder and contracting activity in
        requirements of their labor categories for                tracking funds.
        15 contractor employees of the 19 in our
        sample.
The contractor’s invoices included minor                   Management Comments and
unallowable costs of $925, which have been                 Our Response
credited to the Government. The contractor                 The Assistant Secretary of Defense (Health
complied with Federal Acquisition Regulation               Affairs) and United States Army Medical
Subpart 31.2, “Contracts with Commercial                   Command/Office of the Surgeon General agreed
Organizations,” which defines accurate,                    with our recommendations and deobligated
allowable, and allocable costs. As a result, the           $510,095 in funds. Please see the
Defense Finance and Accounting Service and                 recommendations table on the back of this page.
the TMA Payment Office paid the contractor for
appropriate costs. In addition, Defense Finance
and Accounting Service and the TMA Payment

                                                     i
	
Report No. DODIG-2012-062 (Project No. D2011-D000CF-0062.000)              March 08, 2012

Recommendations Table

             Management                  Recommendations        No Additional Comments
                                        Requiring Comment             Required
 Director, TRICARE Management                                              B
 Activity
 Director, U.S. Army Medical Research                                     B
 Acquisition Activity




                                            ii
	
Table of Contents

Introduction                                                                    1


      Objective                                                                 1

      Background                                                                1

      Review of Internal Controls                                               4


Finding A. Contractor-Invoiced Costs Were Generally Accurate,

            Allowable and Allocable                                             5


      Federal Acquisition Regulation                                            5

      Invoiced Costs for Direct Labor and Other Direct Costs Were Generally

             Accurate, Allowable, and Allocable                                 6

      Employee Time Sheets Complied With the Contractor’s Time and

             Attendance Policy                                                  7

      Labor Categories and Rates Invoiced Were Appropriate                      7

      Four Contractor Employees Did Not Initially Meet Minimum Labor

             Category Requirements                                              8

      DFAS and the TMA Payment Office Paid the Contractor for

             Appropriate Costs                                                  9

      Management Actions                                                        9


Finding B. USAMRAA and TMA Officials Did Not Adequately Track

            Funding on Task Order 6                                            10 


      Funds Remaining on the Task Order                                        10 

      DoD Officials Were Unsure of Whose Responsibility it was to 

            Track Funds on Task Order 6                                        11 

      Conclusion                                                               13 

      Recommendations, Management Comments, and Our Response                   14 


Appendices

      A. Scope and Methodology                                                 16 

      B. Prior Coverage                                                        19 

      C. Summary of Potential Monetary Benefits                                20 


Management Comments

      Office of the Assistant Secretary of Defense for Health Affairs          21 

      United States Army Medical Command/Office of the Surgeon General         24

Introduction
Objective
The audit objective was to determine whether costs on contractor invoices for services
performed for DoD were accurate, allowable, and allocable. See Appendix A for a
discussion of the scope and methodology and Appendix B for prior coverage related to
the objectives.

Background
The Government Accountability Office and DoD Inspector General have identified DoD
contract management as a high-risk area since the 1990s. DoD annually spends
$400 billion on contracts for goods and services and expects to obligate $2 trillion from
FY 2011 through FY 2015. In addition, recent statutory requirements stressed the need
for improvements in the integrity of the Government’s payments and efficiency of its
programs and activities. Specifically, “The Accountable Government Initiative: The
Obama Administration’s Effort to Cut Waste and Modernize Government,” published by
the White House on July 22, 2010, states:

                 Each year, the federal government wastes billions of American
                 taxpayers’ dollars on improper payments to individuals, organizations,
                 and contractors. These are payments made in the wrong amount, to the
                 wrong person, or for the wrong reason. In 2009, improper payments
                 totaled nearly $110 billion, the highest amount to date.

The President’s goal is to reduce improper payments by $50 billion by 2012. Public
Law 111-204, “Improper Payments Elimination and Recovery Act of 2010,” directed
Federal agencies to take specific actions to significantly reduce improper payments.
Determining whether invoiced costs are accurate, allowable, and allocable is essential to
identifying improper payments.

Task Orders and Invoices Reviewed
We nonstatistically selected 3 task orders, valued at $64.0 million. We reviewed
251 invoices, totaling $32.9 million. 1 DoD awarded three task orders to Apptis, Inc. 2




1
 For task order 6, we reviewed 75 invoices, totaling $9.1 million, for all work performed from October 1,
2008, through December 31, 2010. For task order 55, we reviewed 33 invoices, totaling $8.2 million, for
all work performed from October 1, 2008, through February 28, 2011. For task order 73, we reviewed all
143 invoices, totaling $15.6 million, for all work performed from February 28, 2010, through February 27,
2011.
2
 On October 5, 2001, DoD awarded base contract DCA200-02-D-5000 to SETA Corporation. On
December 15, 2003, DoD awarded base contract W74V8H-04-D-0023 to PlanetGov, Inc. In 2004,
PlanetGov, Inc. acquired SETA Corporation and changed its name to Apptis, Inc. In April 2011, URS
Corporation announced that it would acquire Apptis, Inc.

                                                    1

We determined whether:
  •	 costs on contractor invoices for services performed were accurate, allowable, and
      allocable (Finding A);
  •	 contractor employee time sheets complied with the contractor’s time and

      attendance policy (Finding A);

  •	 labor categories and rates, calculations, and amounts were correct (Finding A);
  •	 a sample of contractor personnel met the qualifications of their assigned labor
      category (Finding A); and
  •	 DoD contracting officials deobligated excess funds once the period of

      performance was complete (Finding B). 


Task Order 6
In September 2008, the United States Army Medical Research Acquisition Activity
(USAMRAA) awarded task order 6, a cost-plus-fixed-fee task order, against contract
W74V8H-04-D-0023 to provide support for the TRICARE Management Activity (TMA).
The period of performance is from October 1, 2008, through September 30, 2013. As of
September 28, 2011, the task order value including options was $21.4 million.

We obtained 75 invoices, totaling $9.1 million, for all work performed from October 1,
2008, through December 31, 2010. We reviewed the 75 invoices for mathematical
correctness. Of the 75 invoices, 27 invoices, totaling $8.4 million, were for labor. We
reviewed all 27 labor invoices for accuracy of labor categories and labor rates. In
addition, from these 75 invoices, we reviewed a nonstatistical sample of 27 invoices (a
mix of invoices for labor, travel, and other direct costs), totaling $3.2 million, for
accuracy, allowability, and allocability of specific costs.

Task Order 55
In October 2008, the Defense Information Technology Contracting Office awarded task
order 55, a time-and-materials task order, against contract DCA200-02-D-5000 to
provide support for the Naval Circuit Management Office. The period of performance
was October 1, 2008, through September 30, 2011. As of September 28, 2011, the task
order value including options was $14.2 million.

We obtained 33 invoices, totaling $8.2 million, for all work performed from October 1,
2008, through February 28, 2011. We reviewed 32 invoices for accuracy of labor
categories and labor rates and reviewed all 33 invoices for mathematical correctness. In
addition, we reviewed a nonstatistical sample of 15 invoices, totaling $3.5 million, of the
33 invoices for accuracy, allowability, and allocability of specific costs.

Task Order 73
In February 2010, the Defense Information Technology Contracting Office awarded task
order 73, a time-and-materials and firm-fixed-price type task order, against contract
DCA200-02-D-5000 to provide support for the Defense Information Systems Agency.
Approximately 81.1 percent of the work was firm-fixed-price. The period of
performance was from February 28, 2010, through February 27, 2012. As of
September 28, 2011, the task order value including options was $28.4 million.

                                             2

We obtained 143 invoices, totaling $15.6 million, for all work performed from
February 28, 2010, through February 27, 2011. Of the 143 invoices, 91 invoices, totaling
$12.7 million, were firm-fixed-price and 52 invoices, totaling $2.9 million, were time­
and-materials. We reviewed the 91 firm-fixed-price invoices for correctness of the
payment amount. We reviewed the 52 time-and-materials invoices for accuracy of labor
categories and labor rates; mathematical correctness; and accuracy, allowability, and
allocability of specific costs.

Wide Area Workflow
Wide Area Workflow is a secure web-based system for electronic invoicing, receipt, and
acceptance. It enables authorized Defense contractors to create invoices and receiving
reports and access contract-related documents. Wide Area Workflow eliminates paper
from the receipt and acceptance process of the DoD contracting lifecycle, increases data
accuracy, and reduces the risk of lost documents. According to data in Wide Area
Workflow, the Defense Contract Audit Agency approved Apptis, Inc. for direct billing.
Direct billing routes payment requests directly to the payment office. Defense Contract
Audit Agency performs an audit only on the final payment.

Defense Finance and Accounting Service
The Defense Finance and Accounting Service (DFAS) is the finance and accounting
organization for DoD. According to the DFAS, “Contractor and Vendor Payment
Information Guidebook,” DFAS Accounts Payable Operations is responsible for
entitlement determination and payment to all businesses that have provided goods or
services to DoD. In FY 2010, DFAS Accounts Payable Operations paid $384.1 billion in
invoices. DFAS processed the invoice payments for task orders 55 and 73 using Wide
Area Workflow.

TRICARE Management Activity
TMA, established May 31, 2001, is a DoD field activity of the Under Secretary of
Defense for Personnel and Readiness and operates under the authority, direction, and
control of the Assistant Secretary of Defense for Health Affairs. TMA is responsible for
managing the TRICARE health care program for active duty members and their families,
retired Service members and their families, National Guard/Reserve members and their
families, survivors, and others entitled to DoD medical care. The mission of TMA is to:
     •	 manage TRICARE,
     •	 manage and execute the Defense Health Program appropriation and the DoD
        Unified Medical Program, and
     •	 support the Uniformed Services in implementing the TRICARE Program and the
        Civilian Health and Medical Program of the Uniformed Services.

TMA has operational offices in Falls Church, Virginia, and Aurora, Colorado.
Additionally, TMA is organized into six geographic health services regions, each with its
own TRICARE regional office. The contracting officer’s representative (COR) for task
order 6 is in the Falls Church, Virginia, office, and the TMA Payment Office in Aurora,
Colorado, paid task order 6 invoices.
                                            3

TMA Payment Office
The TMA Payment Office in Aurora, Colorado, processed the invoice payments for task
order 6 and conducted secondary reviews of the invoices prior to payment. The TMA
Payment Office does not use Wide Area Workflow. Instead, the contractor e-mails
invoices and related documentation to an e-mail inbox that is accessible to the COR and
anyone involved in the invoice review process.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We did not identify internal
control weaknesses in the contractor’s invoicing process for the 251 invoices reviewed.
However, we identified an internal control weakness in the USAMRAA contracting
office and TMA fund management process. Neither USAMRAA officials nor TMA
officials monitored the funds obligated for task order 6, resulting in expired funds
remaining on the task order and unavailable for new obligations. We will provide a copy
of the report to the senior officials responsible for internal controls at USAMRAA and
TMA.




                                           4

Finding A. Contractor-Invoiced Costs Were
Generally Accurate, Allowable, and Allocable
The contractor for contract DCA200-02-D-5000, task orders 55 and 73, and for contract
W74V8H-04-D-0023, task order 6, invoiced costs that were generally accurate,
allowable, and allocable. Specifically, the contractor:
    •	 appropriately invoiced $9.4 million in direct labor charges and other direct costs
        on 94 invoices reviewed;
    •	 generally complied with its time and attendance policy for 1,156 time sheets;
    •	 billed for labor categories and rates established in the task order or base contract
       for 111 labor invoices, totaling $19.5 million, for three task orders; and
    •	 hired employees that met the requirements of their labor categories for

       15 contractor employees of the 19 in our sample. 


The contractor’s invoices included minor unallowable costs of $925, which have been
credited to the Government. Generally, the contractor complied with Federal Acquisition
Regulation (FAR) Subpart 31.2, “Contracts with Commercial Organizations,” which
defines accurate, allowable, and allocable costs. As a result, DFAS and the TMA
Payment Office paid the contractor for appropriate costs. In addition, DFAS and the
TMA Payment Office paid 244 invoices, totaling $32.6 million, in accordance with the
Prompt Payment Act.

Federal Acquisition Regulation
FAR subpart 31.2 provides regulations for determining whether a cost is allowable,
reasonable, and allocable.

FAR 31.201-2(d), “Determining allowability,” states:

               A contractor is responsible for accounting for costs appropriately and
               for maintaining records, including supporting documentation, adequate
               to demonstrate that costs claimed have been incurred, are allocable to
               the contract, and comply with applicable cost principles in this subpart
               and agency supplements. The contracting officer may disallow all or
               part of a claimed cost that is inadequately supported.

FAR 31.201-3(a), “Determining reasonableness,” states:

               A cost is reasonable if, in its nature and amount, it does not exceed that
               which would be incurred by a prudent person in the conduct of
               competitive business . . . . No presumption of reasonableness shall be
               attached to the incurrence of costs by a contractor. If an initial review
               of the facts results in a challenge of a specific cost by the contracting
               officer or the contracting officer’s representative, the burden of proof
               shall be upon the contractor to establish that such cost is reasonable.

FAR 31.201-4, “Determining allocability,” states, “A cost is allocable to a Government
contract if it—(a) is incurred specifically for the contract . . .”
                                                   5

Invoiced Costs for Direct Labor and Other Direct Costs
Were Generally Accurate, Allowable, and Allocable
The contractor for task orders 55, 73, and 6 invoiced costs that were generally accurate,
allowable, and allocable. We reviewed 94 invoices, totaling $9.4 million, that included
$6.36 million in direct labor charges and $3.07 million for other direct costs. The
contractor only charged $925 in costs that were not accurate, allowable, and allocable on
4 invoices, 3 totaling $1.2 million, of the 94 invoices reviewed. A summary of the
invoices reviewed for each task order is shown in Table 1.

                   Table 1. Summary of Invoiced Costs Reviewed
                     Task Order 55 Task Order 73 Task Order 6                                   Total
No. of Invoices             15              52              27                                    94
Direct Labor              $3,468,680      $2,415,807      $ 471,726                           $6,356,213
Other Direct Costs            61,999         278,296       2,725,841                           3,066,136
 Total Direct Costs       $3,530,679      $2,694,103      $3,197,567                          $9,422,349

The invoice costs we reviewed for task orders 73 and 6 contained no errors. The
contractor billed costs on those invoices that were reasonable, fully supported by receipts,
and for work associated with that specific task order.

However, 4 invoices2 of the 15 reviewed for task order 55 contained $925 in charging
errors, which included $807 in direct labor overcharges and $118 in unallowable other
direct costs.

The contractor overcharged DoD by $363 in direct labor costs on the invoice for work
performed in October 2009.2 An employee allocated hours on his time sheet to two
different labor categories each with a different corresponding rate. However, the
contractor invoiced all of the employees’ monthly hours to just one labor category and
charged the incorrect labor rate for that labor category, resulting in $363 in direct labor
overcharges.

The contractor attempted to correct this error on the invoice for work performed in
June 2010 but created an additional overcharge of $444. The contractor created this
second error by removing the hours that it included in the incorrect labor category but
removing the hours at a lower labor rate than what was originally charged. As a result of
the adjustment, the contractor created an additional overcharge of $444. Therefore, the
total in direct labor overcharges is $807.



3
  To verify costs on 1 of the 94 invoices, we reviewed an invoice in addition to those in our sample. The
additional invoice was for work the contractor performed in October 2009. We limited our review of this
additional invoice to the hours worked by 1 contractor employee; therefore, we did not include this invoice
in the 94 invoices, totaling $9.4 million. See Appendix A for a detailed discussion of our scope and
methodology.

                                                     6

In addition, $118 in other direct costs were unallowable:
    • $30 in local mileage overcharges,
    • $53 for a hotel pet fee, and
    • $35 for a credit card annual fee.

Employee Time Sheets Complied With the Contractor’s
Time and Attendance Policy
The contractor’s employees generally complied with the contractor’s time and attendance
policy. For the 3 task orders, we reviewed 1,156 time sheets for work performed from
February 2010 through February 2011. The contractor’s time and attendance policy, “HR
112 Recording Time and Labor,” April 29, 2009, requires its employees to sign their own
time sheets each day and for the supervisor to sign on the employee’s behalf if the
employee is absent. The employee is supposed to sign their time sheet upon return to the
office. In addition, the policy requires supervisors to approve the time sheets by the first
business day after the end of the pay period.

Employees signed their own time sheets for 1,130 time sheets of 1,156 reviewed.
Although, the employees did not sign their own time sheets for 26 time sheets of the
1,156 reviewed, we considered this to be immaterial.

Supervisors signed 11 time sheets of the 1,156 reviewed before the employees signed
them. For 9 of these 11 time sheets, the contractor adequately tracked the time sheet
revisions and documented legitimate reasons for the employees being unavailable to sign
their time sheets. In addition, for 10 time sheets of the 1,156 reviewed, 10 or more days
elapsed between the employee signing the time sheets and the supervisors approving
them. Only 1 time sheet of the 1,156 reviewed was not approved as of June 20, 2011, for
a total of 164 elapsed days between the date the timesheet was signed and June 20, 2011.
However, we considered this to be immaterial.

Labor Categories and Rates Invoiced Were Appropriate
The contractor’s invoices included labor categories and rates that were generally
appropriate. For the 111 invoices for labor, totaling $19.5 million, we compared the
labor categories and rates the contractor invoiced to those in the task order and to those in
the base contract (see Table 2).

                    Table 2. Summary of Labor Invoices Reviewed
                     Task Order 55 Task Order 73 Task Order 6                      Total
No. of Invoices            32              52               27                      111
Direct Labor             $7,312,791      $2,415,807      $1,061,272             $10,789,870
Total Invoiced           $8,173,425      $2,946,816      $8,429,102             $19,549,343

All of the labor categories and rates that the contractor invoiced for task orders 55 and
73 were correct.


                                              7
However, for task order 6, the contractor included labor categories on its invoices that
were not included in the task order:
   • six labor categories invoiced over a five-month period, 

   • one labor category invoiced over a two-month period, and 

   • two labor categories invoiced over a different two-month period.

Although the labor categories were not included in the task order, they were included in
the base contract. This is permitted by FAR Clause 52.216-18, “Ordering,” which states
that if there is a conflict between the task order and the base contract, the base contract
takes precedence. The contracting officer incorporated this clause into the base contract.

Task order 6 was cost-plus-fixed-fee. Therefore, the rates had to represent the
contractor’s actual costs. We determined the contractor employees’ salary rate by
dividing the employees’ bi-monthly salaries by the total number of hours on the time
sheet for the pay period. We then compared that rate to the rate charged on the invoices.
The invoiced rates matched the employees’ salary rates; therefore, the contractor charged
accurate labor rates on task order 6.

Four Contractor Employees Did Not Initially Meet
Minimum Labor Category Requirements
Although 15 contractor employees of the 19 in our sample met the requirements of their
labor categories, 4 contractor employees did not initially meet minimum labor category
requirements. The contractor assigned 120 employees to the 3 task orders. Our sample
included:
    • 4 contractor employees of 16 assigned to task order 6,
    • 5 contractor employees of 29 assigned to task order 55, and
    • 10 contractor employees of 75 assigned to task order 73.

Task order 6 did not identify specific requirements for each labor category. However, the
four contractor employees had experience commensurate with the labor descriptions.
The ten contractor employees from task order 73 met the education and experience
requirements for their labor categories.

Of the five contractor employees from task order 55, four employees did not meet the
minimum education requirements of their labor category; however, in December 2010,
the Defense Information Technology Contracting Office modified the base contract to
include an updated qualifications list. The updated list allowed the contractor to use its
own discretion to use a combination of experience and education. Although these four
contractor employees did not initially meet the education requirements of their labor
categories, they had extensive experience with the type of work they performed, the COR
and customers did not identify any problems with the contractor personnel’s
performance, and these employees met the updated labor qualifications that the
contracting officer added to the base contract in December 2010.




                                             8

DFAS and the TMA Payment Office Paid the Contractor
for Appropriate Costs
DFAS and the TMA Payment Office paid the contractor $9.4 million in costs that were
generally accurate, allowable, and allocable. In addition, DFAS and the TMA Payment
Office paid 244 invoices, totaling $32.6 million, in accordance with the Prompt Payment
Act. 4

DFAS paid all 176 invoices reviewed, totaling $23.8 million, on task orders 55 and 73, in
accordance with the Prompt Payment Act. Payments included interest of $23 for late
payments and authorized discounts of $24,561. Although DFAS paid the incorrect
amount on five invoices, the overpayment was only $992. We notified DFAS about the
inaccurate payments; however, we did not make a recommendation because we did not
deem the amount to be material.

Of the 75 invoices reviewed, totaling $9.1 million on task order 6, the TMA Payment
Office paid 68 invoices, totaling $8.8 million, in accordance with the Prompt Payment
Act, which included interest of $850 for late payments and authorized discounts of
$3,859. The TMA Payment Office paid the other seven invoices late but did not pay any
interest. The TMA Payment Office performed its own analysis and issued an interest
payment of approximately $449 to the contractor on September 23, 2011; therefore, we
did not make a recommendation.

Management Actions
Of the 15 invoices reviewed for task order 55, 4 invoices contained minor errors, totaling
$925. The contractor issued credits to Naval Circuit Management Office for the
overcharges. Although the TMA Payment Office did not originally pay interest on
seven invoices that it paid late for task order 6, the TMA Payment Office later paid the
contractor $449 in interest. Therefore, we did not make a recommendation.




4
 Public Law 97-177, “The Prompt Payment Act,” requires Federal agencies to pay their bills in a timely
manner, to pay interest penalties when payments are made late, and to take discounts only when payments
are made by the discount date.

                                                   9

Finding B. USAMRAA and TMA Officials Did
Not Adequately Track Funding on Task
Order 6
USAMRAA contracting officials, the TMA COR, and TMA Payment Office officials did
not adequately track funding on task order 6 because they were unaware of whose
responsibility it was to do so. As a result, TMA and USAMRAA allowed $196,543 in
FY 2009 and FY 2010 Defense Health Program Operation and Maintenance (O&M)
funds to expire because it left the funds on the task order after the period of performance
ended. In addition, TMA and USAMRAA officials allowed $325,346 in DoD
Medicare-Eligible Retiree Health Care (MERHC) funds to remain on the task order after
the period of performance ended. TMA and USAMRAA officials should deobligate the
O&M and MERHC funds in excess of estimated final indirect rate adjustments. 5 The
MERHC funds may then be used for other projects.

Funds Remaining on the Task Order
USAMRAA contracting officials obligated FY 2009 and FY 2010 Defense Health
Program O&M funds and no-year MERHC funds on task order 6. Specifically, the O&M
funds were Defense Health Program Managed Care Support/Civilian Health and Medical
Program of the Uniformed Services funds.

DoD Regulation 7000.14-R, “DoD Financial Management Regulation,” (FMR)
volume 2A, chapter 1, and DFAS Manual 7097.01, “Financial Management
Departmental Reporting Manual for Office of the Secretary of Defense (Treasury
Index 97) Appropriations,” state that DoD can obligate O&M funds for 1 year. After
1 year, the funds expire and DoD cannot use the funds for new obligations. Additionally,
FMR, volume 3, chapter 10, “Accounting Requirements for Expired and Closed
Accounts,” states that expired funds are available for recording, adjusting, and liquidating
obligations properly chargeable to that account for 5 years.

USAMRAA contracting officials obligated funds provided by TMA over three periods of
performance. The periods of performance correspond to the fiscal year. The relevant
periods of performance were the:
    • Transition-In period, from October 1, 2008, through February 28, 2009;
    • Base-Year period, from March 1, 2009, through September 30, 2009; and
    • Option-1 period, from October 1, 2009, through September 30, 2010.




5
 FAR 2.101, “Definitions,” states that the “final indirect cost rate” is “ . . . the indirect cost rate established
and agreed upon by the Government and the contractor as not subject to change. It is usually established
after the close of the contractor’s fiscal year (unless the parties decide upon a different period) to which it
applies.”

                                                        10 

USAMRAA contracting officials, on behalf of TMA, obligated the FY 2009 O&M funds

during the Transition-In and Base-Year periods and obligated the FY 2010 O&M funds

during the Option-1 period. 


The MERHC funds are no-year funds, as described in DFAS Manual 7097.01, 

chapters 1-1 and 2-5472, “DoD Medicare-Eligible Retiree Health Care Fund.” Therefore,

DoD can use the funds for new obligations without fiscal year limitations. USAMRAA 

contracting officials, on behalf of TMA, obligated MERHC funds during the Transition-

In, Base-Year, and Option-1 periods. Table 3 shows the funds remaining on the task 

order. 


                     Table 3. Funds Remaining on Task Order 6
             Fiscal Year     Fiscal Year of Fund Type       Balance
              Obligated     Appropriation                 Remaining
                2009              2009         O&M            $ 94,547
                2009            No Year       MERHC            158,931
                2010              2010         O&M             101,996
                2010            No Year       MERHC            166,415
             Total Funds Remaining                            $521,889

We discussed the need to deobligate funds with USAMRAA contracting officials. They
stated that they cannot deobligate the entire $521,889 in funds until the Defense Contract
Audit Agency approves the contractor’s final indirect rates for FY 2009 and FY 2010.
FAR 42.705, “Final indirect cost rates,” requires the contractor to submit a final invoice
or voucher reflecting the settled amount and rates within 120 days of Defense Contract
Audit Agency finalizing the indirect cost rates for each fiscal year. Therefore,
USAMRAA contracting officials and TMA Payment Office officials should coordinate
with the contractor to determine how much of the funds remaining on task order 6 will be
needed for final indirect rate adjustments. The officials should then deobligate the excess
funds. See Appendix C for a summary of the potential monetary benefits.

DoD Officials Were Unsure of Whose Responsibility it
Was to Track Funds on Task Order 6
The USAMRAA contracting office became aware of the excess funds as a result of our
audit; however, USAMRAA contracting officials, the TMA COR, and TMA Payment
                                 Office officials were unclear about who was
  USAMRAA contracting officials,
                                 responsible for tracking funds on task order 6.
 the TMA COR, and TMA Payment
 Office officials were unclear about
  who was responsible for tracking     The TMA COR stated that she believed tracking
        funds on task order 6.         funds was “usually done” by the TMA Payment
                                       Office “since they provide the funding.”

An accountant from the TMA Payment Office stated, “from what I can tell, monitoring is
a joint responsibility of the usual stakeholders: Contacting Office, Contracting Officer’s

                                             11 

Representative, the budget/accounting/paying office, and the contractor.” In addition, she
stated that from her office’s perspective, “. . . the excess amounts for this contract are
immaterial compared to all of TRICARE’s undelivered orders as a whole . . . .”

A USAMRAA procurement analyst stated that monitoring funding levels was the
responsibility of the Defense Contract Audit Agency. However, she referred to the
administrative contracting office, which is the Defense Contract Management Agency
(DCMA), Manassas, Virginia (DCMA-Manassas).

The USAMRAA contract specialist stated that monitoring the funds is a shared
responsibility between the requiring activity, the COR, DCMA-Manassas, USAMRAA,
and the comptroller. The contract specialist also stated that the administrative contracting
office normally identifies excess funds for deobligation.

A DCMA-Manassas official stated that DCMA-Manassas had no record of task order 6 in
its database and that the task order should have been in the database. In addition, the
DCMA-Manassas official stated that the contracting officer had not delegated the
responsibility of monitoring funding during the task order’s period of performance. The
DCMA-Manassas official stated that DCMA-Manassas does not normally perform
funding reviews until the task order has ended.

The USAMRAA contracting officer who awarded the initial task order stated, “Excess
funds are typically not removed until the final audits are completed – cost incurred and
indirect rate finalization, which can take years after the last day of performance.” He
further stated, “We rely on the Program Office, Defense Contract Audit Agency/DCMA,
and DFAS to provide advice on excess funds. In many cases, DCMA simply forwards us
a copy of their deobligation modification.”

The USAMRAA contracting officer who awarded modification 8 of the task order stated
in an e-mail:

               The monitoring of excess funding is normally performed by the
               administering contracting office. Accordingly, excess funding is
               typically monitored, reconciled, and recommended for deobligation in
               response to notification received from the following sources:
               1. Administering Contract Office
               2. Defense Finance Accounting Office
               3. Program Budget Analyst
               4. Contract/Task Order Closeout Contracting Officer

Neither the base contract nor the task order specified whose responsibility it was to track
funding.

FAR 42.302(a)(70), “Contract administration functions,” states that the contracting
officer may delegate to the contract administration office the task of deobligating excess
funds after final price determination. For task order 6, the administrative contracting
office is DCMA-Manassas. Because the contracting officer did not delegate the task of


                                               12 

deobligating excess funds to DCMA-Manassas, this responsibility still resided with the
contracting officer.

FMR, volume 3, chapter 8, paragraph 80401, “Triannual Reviews of Commitments,
Obligations, Accounts Payable and Accounts Receivable,” states:

               Fund Holders, with assistance from supporting accounting offices, shall
               review dormant commitments, unliquidated obligations, accounts
               payable and accounts receivable transactions for timeliness, accuracy,
               and completeness during each of the four month periods ending on
               January 31, May 31, and September 30 of each fiscal year.

FMR, volume 3, chapter 8, paragraph 80403, “Responsibilities of Accounting Offices,”
requires accounting offices to identify unliquidated obligations to the funds holder and
requires the funds holder to conduct reviews of unliquidated obligations. FMR,
volume 3, chapter 8, paragraph 80404, “Responsibilities of Fund Holders,” requires the
funds holder to do this because the funds holder initiates the actions that result in
commitments and obligations and, therefore, is in the best position to determine the
accuracy and the status of such transactions. In addition, FMR, volume 3, chapter 8,
paragraph 80404(E), “Annual Review Requirements,” requires the funds holder to
annually review all obligations, whether current or dormant, and initiate actions to
resolve unliquidated obligations.

Based on the FMR, the funds holder, TMA, should track the funds it provides for
obligation on task order 6 and determine how much of the obligations remain unused at
the end of each fiscal quarter. TMA should provide this information to the TMA
Payment Office and USAMRAA so the funds can be deobligated. However, USAMRAA
and TMA Payment Office officials cannot deobligate all of the unused funds until the
Defense Contract Audit Agency and contractor agree to a final price determination.
Based on the FAR, the contracting office is responsible for deobligating excess funds
after final price determination unless it assigns the function to another entity. Because it
is unclear who is responsible for tracking funds, TMA and USAMRAA officials should
establish guidance that delineates the roles and responsibilities of personnel.

Conclusion
Because the USAMRAA contracting officials and the TMA Payment Office did not
identify a responsible party to monitor the task order funding, funds were unnecessarily
obligated and unavailable for other purposes. If the TMA Payment Office officials had
deobligated unused O&M funds during the fiscal year of their appropriation, the funds
could have been obligated on other contracts and task orders. However, DoD cannot use
these funds for new obligations because the funds have expired. The FY 2009 O&M
funds expired on September 30, 2009, and the FY 2010 O&M funds expired on
September 30, 2010. However, the remaining MERHC funds (when deobligated) will be
available for use on other contracts and task orders.




                                                 13 

Recommendations, Management Comments, and Our
Response
B. We recommend that the Director, TRICARE Management Activity, in
coordination with the Director, U.S. Army Medical Research Acquisition Activity:

       1. Determine how much of the $196,543 in Defense Health Program
Operation and Maintenance funds—$94,547 in FY 2009 funds and $101,996 in
FY 2010 funds—should remain on task order 6 for final indirect rate adjustments
and deobligate the remaining funds. The TRICARE Management Activity should
use the remaining expired funds for recording, adjusting, and liquidating
obligations properly chargeable to the Operation and Maintenance funds or remit
the funds to the Department of the Treasury.

Assistant Secretary of Defense (Health Affairs) Comments
The Assistant Secretary of Defense (Health Affairs) agreed, stating that the Army
deobligated $192,100—$92,523 of FY 2009 funds and $99,577 of FY 2010 funds.

United States Army Medical Command/Office of the Surgeon
General Comments
The United States Army Medical Command/Office of the Surgeon General, Chief of
Staff agreed, stating that the Army deobligated $192,100—$92,523 of FY 2009 funds
and $99,577 of FY 2010 funds—of the $196,543 Defense Health Program Operations
and Maintenance funds considered for deobligation, leaving the remainder for final
indirect rate adjustments.

       2. Determine how much of the $325,346 in DoD Medicare-Eligible Retiree
Health Care Funds—$158,931 obligated in FY 2009 and $166,415 obligated in
FY 2010—should remain on task order 6 for final indirect rate adjustment and
deobligate the remaining funds for future use.

Assistant Secretary of Defense (Health Affairs) Comments
The Assistant Secretary agreed, stating that the Army deobligated $317,995 in funds.

United States Army Medical Command/Office of the Surgeon
General Comments
The Chief of Staff agreed, stating that the Army deobligated $317,995 of the

$325,346 DoD Medical-Eligible Retiree Health Care Funds considered for deobligations, 

leaving the remainder for final indirect rate adjustments. 





                                           14 

       3. Establish guidance that delineates the roles and responsibilities of the
funds holder and contracting activity in tracking funds.

Assistant Secretary of Defense (Health Affairs) Comments
The Assistant Secretary agreed, stating that the TRICARE Management Activity has a
Desktop Reference Guide that addresses the roles and responsibilities of the funds holder
and the contracting activity when tracking funds. TRICARE Management Activity
officials shared this information with contracting officials at USAMRAA.

United States Army Medical Command/Office of the Surgeon
General Comments
The Chief of Staff agreed, stating that TRICARE Management Activity and U.S. Army
Medical Research Acquisition Activity discussed and agreed to adhere to the roles and
responsibilities of the funds holder and contracting activity outlined in the TRICARE
Management Activity Desktop Reference Guide. He also stated that the Directors of the
activities have agreed to jointly issue a memorandum to specify the roles and
responsibilities of the funds holder and contracting activity by February 29, 2012.

Our Response
The comments from the Assistant Secretary of Defense (Health Affairs) and the United
States Army Medical Command/Office of the Surgeon General, Chief of Staff, on all
three recommendations were responsive, and no further comments are required.




                                           15 

Appendix A. Scope and Methodology
We conducted this performance audit from October 2010 through December 2011 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

The overall objective was to review contractor invoices for DoD service contracts to
determine whether the costs were allowable, allocable, and accurate. To accomplish our
objective, we focused on Defense contractors that:
    • had service contracts,
    • had contracts with a variety of contract types, 

    • obligated funds on these contracts in FY 2010, and 

    • provided services to a variety of Defense organizations.

We selected two indefinite-delivery, indefinite-quantity contracts awarded to URS
Corporation, * DCA200-02-D-5000 and W74V8H-04-D-0023. We reviewed two task
orders awarded against DCA200-02-D-5000 and one task order awarded against
W74V8H-04-D-0023. In total, we reviewed 251 invoices, totaling $32.9 million, from
three task orders, valued at $64.0 million (see the table).

                        Task Orders and Invoices Reviewed
Task      Contract    Award Performance                    No. of                           Invoice
                                                Amount
Order      Type        Date       End Date                Invoices                          Amount
 55        T&M        10/1/08      9/30/11    $14,219,812    33                           $ 8,174,071
 73      T&M, FFP 2/26/10          2/27/12     28,371,095   143                            15,661,409
  6        CPFF       9/28/08      9/30/13     21,427,604    75                             9,109,253
  Totals                                      $64,018,510   251                          $32,944,733
T&M           Time-and-Materials
FFP           Firm-Fixed-Price
CPFF          Cost-Plus-Fixed-Fee

The Defense Information Technology Contracting Office awarded task orders 55 and
73 against contract DCA200-02-D-5000 on behalf of Naval Circuit Management Office
and the Defense Information Systems Agency, respectively. USAMRAA awarded task
order 6 against contract W74V8H-04-D-0023 on behalf of TMA. We visited the Defense
Information Technology Contracting Office at Scott Air Force Base, Illinois, and the


*
 On October 5, 2001, DoD awarded base contract DCA200-02-D-5000 to SETA Corporation. On
December 15, 2003, DoD awarded base contract W74V8H-04-D-0023 to PlanetGov, Inc. In 2004,
PlanetGov, Inc., acquired SETA Corporation and changed its name to Apptis, Inc. In April 2011, URS
Corporation announced that it would acquire Apptis, Inc.

                                                 16 

USAMRAA contracting office at Fort Detrick, Maryland. We also visited the customers:
Naval Circuit Management Office at the Norfolk Naval Station, Virginia; the Defense
Information Systems Agency in Falls Church, Virginia; and TMA in Falls Church,
Virginia. We visited the contractor at its headquarters in Chantilly, Virginia, and one of
the contractor’s offices in Falls Church, Virginia. We spoke with DFAS officials at
Columbus, Ohio, and Indianapolis, Indiana.

Analysis Performed
We determined whether costs on contractor invoices were accurate, allowable, and
allocable. We interviewed contracting officers, the CORs, and contractor personnel
including project controllers and managers. We also collected contract documentation,
invoices, supporting documentation for the invoices, and surveillance documentation.
We reviewed documentation dated from August 2001 through October 2011.

We reviewed 251 invoices, totaling $32.9 million, and compared the DFAS and TMA
Payment Office payment vouchers to the contractor invoices to determine whether the
payment offices paid the correct amounts and paid them in accordance with the Prompt
Payment Act. In addition, we determined how much interest DoD paid the contractor and
how much DoD saved in authorized discounts. We also determined whether the invoices
were mathematically accurate. Furthermore, we determined whether funds remained on
task order 6 after the period of performance ended. We did not determine whether funds
remained on task orders 55 and 73 because the type of funds obligated on those task
orders existed without fiscal year limitation.

We reviewed a nonstatistical sample of 94 invoices, totaling $9.4 million, out of
251 invoices, totaling $32.9 million, for accuracy, allowability, and allocability of
invoiced costs. For task orders 55 and 73, we reviewed invoices for work performed
from February 2010 through February 2011. For task order 6, we reviewed invoices for
work performed from February 2010 through December 2010. Specifically, we
determined whether the:
    •	 time sheets supported the direct labor hours;
    •	 COR authorized travel and the contractor:
           o	 billed for travel expenses in accordance with per diem rates,
           o	 substantiated travel expenses with receipts, and
           o	 included reasonable mileage on travel expense reports;
    •	 COR authorized materials and other direct cost purchases and whether the 

       contractor had receipts for the purchases.


We reviewed 111 invoices, totaling $19.5 million, to determine whether the contractor
invoiced labor categories and rates in accordance with the task order and base contract.
The remaining 140 invoices, totaling $13.4 million, were either firm-fixed-price or did
not include direct labor costs.

We reviewed a nonstatistical sample of 19 contractor personnel out of the approximately
120 contractor personnel assigned to the 3 task orders to determine whether they met the
education and experience requirements of their labor categories.

                                            17 

We interviewed CORs and reviewed COR documentation to determine whether the
CORs sufficiently reviewed invoices.

We reviewed a sample of 1,156 time sheets to determine whether the contractor
completed time sheets in accordance with the company’s time and attendance policy.

We reviewed public laws, the FAR, the FMR, DoD policies, and DFAS and contractor
procedure manuals. Specifically, we reviewed Public Law 97-177; Public Law 111-204;
and Prompt Payment; Final Rule, 5 Code of Federal Regulations sec. 1315 (1999), to
determine whether DoD payment offices paid contractor invoices in accordance with the
law.

We reviewed FAR subpart 31.2, and FAR Subpart 32.9, “Prompt Payment,” to determine
whether invoiced costs were accurate, allowable, and allocable. We reviewed FAR
Subpart 4.8, “Government Contract Files,” and FAR Subpart 15.4, “Contract Pricing,” to
determine whether the contracted rates were fair and reasonable.

We reviewed FAR 42.302 and FMR, volume 3, chapter 8, to determine the party
responsible for tracking funds.

Additionally, we reviewed FMR, volume 2A, chapter 1, “General Information,” and
DFAS Manual 7097.01 to determine the type of funds obligated on the task order and the
period of availability for new obligations of those funds. We also reviewed FMR,
volume 3, chapter 10, “Accounting Requirements for Expired and Closed Accounts,” for
determining the expiration date of funds obligated on the task orders.

We reviewed the DFAS, “Contractor and Vendor Payment Information Guidebook,” and
“Computerized Accounts Payable System – Windows (CAPS-W) Manual,” to examine
DFAS payment processes’ internal controls. In order to examine the contractor’s internal
controls related to allocating direct labor hours, we examined the contractor’s, “HR 112
Recording Time and Labor,” policy.

Use of Computer-Processed Data
We used the Federal Procurement Data System, the Electronic Document Access System,
and the Wide Area Workflow system to perform this audit. We used the computer-
processed data from the Federal Procurement Data System and Electronic Document
Access System to identify contract actions for review. We retrieved invoice data from
Wide Area Workflow. To assess the accuracy of computer-processed data, we verified
the Federal Procurement Data System, Electronic Document Access System, and Wide
Area Workflow data against official records at visited contracting activities. We
determined that data obtained through the Federal Procurement Data System, Electronic
Document Access System, and Wide Area Workflow were sufficiently reliable to
accomplish our audit objectives.



                                          18 

Appendix B. Prior Coverage
During the last 5 years, the DoD Inspector General (DoD IG), the Army Audit Agency,
and the Naval Audit Service have issued 10 reports discussing invoices and invoice
payments. Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/audit/reports. Unrestricted Army reports can be accessed from .mil
and gao.gov domains over the Internet at https://www.aaa.army.mil/. Naval Audit
Service reports are not available over the Internet.

DoD IG
DoD IG Report No. D-2011-080, “DoD and DoS [Department of State] Need Better
Procedures to Monitor and Expend DoD Funds for the Afghan National Police Training
Program,” July 7, 2011

DoD IG Report No. D-2011-047, “Improvements Needed in Contract Administration of
the Subsistence Prime Vendor Contract for Afghanistan,” March 2, 2011

DoD IG Report No. D-2011-028, “Contract Oversight for the Broad Area Maritime
Surveillance Contract Needs Improvement,” December 23, 2010

DoD IG Report No. D-2010-081, “Army Use of Time-and-Materials Contracts in
Southwest Asia,” August 27, 2010

DoD IG Report No. D-2010-078, “Air Force Use of Time-and-Materials Contracts in
Southwest Asia,” August 16, 2010

DoD IG Report No. D-2007-061, “Defense Finance and Accounting Service Dayton
Network Compliance with the Prompt Payment Act,” March 1, 2007

DoD IG Report No. D-2007-041, “Navy General Fund Vendor Payments Processed by
Defense Finance and Accounting Service,” January 2, 2007

Army
Army Audit Agency Report No. A-2008-0151-ALO, “Logistics Support Contract: Fort
Carson, Colorado,” June 13, 2008

Navy
Naval Audit Service Report No. N2010-0057, “Navy Marine Corps Intranet Contract
Invoice Management at Space and Naval Warfare Systems Command and Naval
Facilities Engineering Command,” September 16, 2010

Naval Audit Service Report No. N2010-0042, “Service Contracts at Space and Naval
Warfare Systems Command (SPAWAR) and SPAWAR System Centers,” July 7, 2010



                                          19 

Appendix C. Summary of Potential Monetary
Benefits
Recommendations       Type of Benefit           Amount of      Accounts
                                                  Benefit
B.1               Funds put to better use     $92,523       97090130.1889
                  from the FY 2009
                  Operation and
                  Maintenance, Defense
                  Health Program,
                  appropriation.
                  Funds put to better use     $99,577       97100130.1889
                  from the FY 2010
                  Operation and
                  Maintenance, Defense
                  Health Program,
                  appropriation.
B.2               Funds put to better use     $317,995      97XX5472.18D9
                  from the no-year DoD
                  Medicare-Eligible
                  Retiree Health Care
                  Operation and
                  Maintenance accrual
                  funds.




                                       20 

Office of the Assistant Secretary of Defense for Health
Affairs Comments




                                  THE ASSISTANT SECRETARY OF DEFEl\SE
                                             1200 DEFENSE PENTAGON
                                            WASIDNGTON,DC 20301-1200


   HEALTH AFFAIRS
                                                                                                 22 Feb 12


        MEMORA'fDUM FOR INSPECTOR GENERAL, DEPARTMENT OF DEFENSE
                        ASSISTA'fT INSPECTOR GENERAL, ACQUISITON AND
                         CONTRACT MANAGEMENT

                This is the Department of Defense (DoD) response to the DoD Inspector General (rG)
        draft report for Project Number D2011DOOOCF-0062.000, "Contractor-Invoiced Costs Were
        Accurate, but DoD Did Not Adequately Track Funding." Thank you for the opportunity to
        review the draft reJKIrt and provide comments. I concur with the draft report ' s overall conclusion
        and findings. My response includes specific comments on the overall DoD IG's review findings
        and position. My specific responses to the three recommendations identified are provided in the
        attachment.

               Please feel free
        ~al),
        ~



                                                          Jonathan Woodson M.D.

        Attachment:
        As stated




                                                                     21
                                 DOD Ie DRAFT REPORT 

                             Projeci No. D201-DOOOCF-0062.000 


"Contractor-Invoiced Costs Were Accurate, but DoD Did '01 Adequ ately Track Funding"

   OFFICE OF THE ASSISTANT SEC R ETARY O F DEF ENSE (HEALTH AFFAIRS) 

                             COMMENTS 



We recommend that the Director, TRICAR.E Management Activity, in coordination with the
Director, U.S. Army Medical Research Acquisition Activity:

RECOMMKNUATION B. I: Delemlinc how much o r tbe $ 196,543 in Defense Health
Program Operation a.nd Maintenance fWlds $94,547 in FY 2009 fllilds and $ 101 ,996 in FY
2010 funds shou ld remain on task order 6 for final indirect rate adjustments and deobligate the
remaining funds. The TRiCARE Manage ment Activity should usc the remaining expired funds
for recording, adjusting, and liquidating obligations properly chargeable to the Operation and
Maintenance fi.mds or remit the funds to the Department of the Treasury.

DOl) RESI'ONSE: Concur. Modification 13 was signed by USAMRAA 011 December 22,
20 11 which resolves and reaJigllside-obligates fWlding for FY 2009 and FY 2010 of the Apptis
contract ffW74VSH-04-D-0023-006. The contract was decreased by $92.522.72 for FY 2009
                             Click to add JPEG file
funds and $99,577. 18 for FY 20 10 flUlds for a total amount of S192,099.90.


RECOM I\1"KNDATION 82 : Detemline how much of the 5325,346 in DoD Medicare-Eligible
Retirec Health Care FWlds S158,931 obligated in FY 2009 and 5 166,415 obl igated in FY
20 I 0 should rcmain on task ordcr 6 for final indirect rate adjustment and dc-obligatc the
remaining funds for future usc.

DOD RESPONSE: Concur. Modification 13 was signed by USAMRAA on December 22,
2011 which resolves and realignslde-obligates funding in FY 2009 and FY 20 10 of the Apptis
contract IIW74VSH-04-D-0023-006. The contract was decreased by S 155.527.44 fo r FY 2009
funds and 5 162,468.02 for FY 2010 funds for a total amount 0[ 5317,995.46.


RECOM!\U':NDATION B3: Establ ish guidance that delineates the roles and responsibilities of
the fUllrlS bolder aod contracting activity in tracking fWlds.

DOD RE SPONSE: Concur. TRJCARE M:magement Activity has a Desktop Reference Guide
located on the Acquisition & Managemcnt Support website which addresses the roles and
responsibilities oflhe funds holder and contracting activity in tracking funds. This infom1ation
has been shared with the Conirolciing ACliviiy, USAMRAA . Below are the sections which
would apply:




                                                           22
3.1.3 Cenifying Officer. The Cenifying Officer within the Financial Operations Division (FOD)
oflbe TMA Resource Management (RM) Directorate certi fies that ade(jua te funding exists to
cover tbe cost of a contract. Each )'rogram Office receives alUlUal funding of a spt."Cified amount.
R.i\ll tracks the status of those accounts as flUId s are spent. Be fo re an order for product's or
services is placed, the RM Certifying Officer must certify that the Program Office has enough
money, or the correct type, available to make the purchase.

5.12 Cost Monitoring: When using cost rei mburse ment type contracts, the Govemmenl must
monitor costs and fllllding. T he COR should use all available infomlation to antic ipate both
over· rW1S and under· bum. The COR must avoid lonnal or iufomlal action that would lead a
contractor to exceed the contract cost limitation. They should likewise remain vigilant of any
potential wlder~buru that could free up resources that might be applied elsewhere within tbeir
program or within TMA.

5.12. 1: FAR clause 52.232·20, Limi tation o f Cost and 52.232.22 Limi tation of Funds require a
contractor to give advance notice if they bclieve an overrun will occur. Tbe notice must be given
wben the contractor bas reason to believe that 75 percent of the nlllds available on the contract
will have been expended in the next 60 days. Notice is also reqaired if. at any time, the
contractor has reason to believe the total cost of perfonnance will substantially exceed, or be less
than, the estimated cost. The contractor must provide a revised cost estimate with the notice. In
addition to the above, the CO R shou.ld immediately notify the KO in cases wben all overrun
seems likely. Commurucations from Government personnel should avoid any implications that
                              Click to add JPEG file
might justify an assumption by the contractor that costs beyond the existing li mitation may be
incurred . All CORs sbouJd note thai cncouraging a contractor to continue work in tile absence of
funds may result in a violation of fi nancial management statutes and may subject the COR 10
criminal penalties.

5.12.2: Towards the end of each and every period ofpcrfomlance, the COR should conduct a
thorough assessment of funds remaining on the contract based on historical data and what the
contractor is requ.ired to do prior to the end o f the order. Any fW1(is detemlincd available for de.
obligation should be immediately brought to the attention of the TMA FOD.




                                                              23
United States Army Medical Command/Office of the
Surgeon General Comments




   .~:~~no
      .~-
                                       DEPARTMENT OF THE ARMY
                              HEADQUARTERS,lINITED STATES ARMY MEDICAL COMMAND
                                              21.. WORTH ROM



   W
                                      FORT SA,. HOUSTOH, T!}(AS 7113...000




      MCIR
              ATTENTION OF
                                                                                           o6 F1:B Z012

      MEMORANDUM FOR DeDartrr                                                General, Acquisition and
      Contract Management, AnN:                                              4800 Mark Center Drive,
      Suite 13F25-04, Alexandria, VA 22350-1500

      SUBJECT: Contractor-Invoiced Costs Were Accurate, but DOD Did Not Adequately
      Track Funding (Project No, D2011 -DOOOCF-0062,000)


      1, Thank for you the opportunity to review this report, Our comments are enclosed for
      your consideration.




      FOR THE COMMANDER:

                                Click to add JPEG file

      En cl                                       tt=fc~
                                                  Chief of Staff




                                                                      24
                                                                                                 Final Report 

                                                                                                  Reference






          US Army Medical Command and Office of the Surgeon General

           Comments on DODIG Dran Report Contractor-Invoiced Costs
            Were Accurate , but DOD Did Not Adequately Track Funding
                      (Project No. D2011-DOOOCF~062.000)


RECOMMENDATION B.1.: The Director. TRICARE Management Activity (TMA), in
coordination with the Director. U.S. Army Medical Research Acquisitio n Activity
(USAMRAA), should determine how much of the $196.543 in Defense Health Program
Operation and Maintenance funds-$94,547 in FY 09 funds and $101 ,996 in FY 10
funds-should remain on task order 6 for final indirect rate adjustments and deobligate
the remaining funds . TMA should use the remaining expired funds for recording ,
adjusting , and liquidating obligations properly chargeable to the Operation and
Maintenance funds or remit the funds to the Department of the Treasury ..
                                                                                               Modification 13 is
RESPONSE: Concur. Of the $196,543 in Defense Health Program Operations and
Maintenance funds considered for de-obligation, $192,099.90 was de-obligated by
                                                                                               not included
modification 13 (attached); $92,522.72 of FY 09 funds and $99,577.18 of FY 10 funds.           because it does not
The amount remai ning on task order 6 for final indirect rate adjustment is $4 ,443.10.        provide additional
                                                                                               applicable
                                                                                               information.
RECOMMENDATION B .2.: The Director, TMA, in coordinatio n with the Director,
USAMRAA, should determine how much of the $325,346 in DOD Medicare-Eligible
Retiree Health Care Funds-$158,931 obligated in FY 09 and $166,415 obligated in
FY 10-should remain on task order 6 for final indirect rate adjustment and deobligate
the remaining funds for future use .

RESPONSE: Concur. DOD Medicare-Eligible Retiree Health Ca re funds are no-year
fu nds, as denoted by the xxxx in characte rs three through six of the accounting
classification , and are not delineated by fiscal year. Of the $325,346 of this fund type
considered for de-obligation, $317,995.46 was de-obligated by modification 13. The
amount remaining on the task orde r for final indirect rate adjustment is $7 ,350.54.




RECOMMENDATION B.3.: The Director, TMA, in coordination with the Director,
USAMRAA, should establish guidance that delineates the roles and responsibilities of
the funds holder and co ntra cting activity in tra cking funds.

RESPONSE: Concur. TMA and USAMRAA discussed the roles and responsibilities of
th e funds holder and co ntracting activity and agreed to adhere to those outlined in the
TMA Desktop Reference Guide (http://www.tricare .mil/tmalamsiams desktop.aspx).
The Directors of USAMRAA and TMA will jointly sign and issue a memorandum
specifying these ro les and responsibilities by 29 February 2012.



                                                                                        Ene!




                                                        25
